                        UNITED STATES DEPARTMENT OF AGRICULTURE
                                   OFFICE OF INSPECTOR GENERAL

                                        Washington D.C. 20250


September 19, 2006



REPLY TO
ATTN OF:       88501-9-FM

TO:            David M. Combs
               Chief Information Officer
               Office of the Chief Information Officer

THRU:          Sherry Linkins
               Office of the Chief Information Officer
               Information Resources Management

FROM:          Robert W. Young        /s/
               Assistant Inspector General
                for Audit

SUBJECT:       National Information Technology Center General Controls Review - Fiscal Year
               2006


This report presents the results of our audit of the internal control structure at the Office of the
Chief Information Officer/National Information Technology Center as of June 30, 2006. The
audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States including American Institute of Certified Public
Accountants Professional Standards AU Sections 316, 319, and 324, as amended by applicable
statements on auditing standards. The report contains an unqualified opinion on the internal
control structure and contains no recommendations. Therefore, no response from your office is
necessary.

We appreciate the courtesies and cooperation extended during our audit.
The relative effectiveness and significance of specific controls at OCIO/NITC and their effect on
assessments of control risk at user organizations are dependent on their interaction with the controls
and other factors present at individual user organizations. We have performed no procedures to
evaluate the effectiveness of controls at individual user organizations.

The control objectives and techniques at OCIO/NITC are as of June 30, 2006, and information about
tests of the operating effectiveness of specific controls covers the period from October 1, 2005 through
June 30, 2006. Any projections of such information to the future are subject to the risk that, because of
change, they may no longer portray the controls in existence. The potential effectiveness of specific
controls at OCIO/NITC is subject to inherent limitations and, accordingly, errors or irregularities may
occur and not be detected. The projection of any conclusions, based on our findings, to future periods
is subject to the risk that changes may alter the validity of such conclusions. Furthermore, the
accuracy and reliability of data processed by OCIO/NITC and the resultant report ultimately rests with
the user agency and any compensating controls implemented by such agency.

This report is intended solely for the management of OCIO/NITC, its users, and their auditors.

/s/

Robert W. Young
Assistant Inspector General
 for Audit

August 31, 2006




USDA/OIG-A/88501-9-FM                                                                             Page 2
